REVIEW OF THE ACQUISITION CAREER MANAGEMENT
         INFORMATION SYSTEM (ACMIS)
      REPORT NUMBER A090023/O/A/F11006


                July 20, 2011
Date:        July 20, 2011

Reply to
Attn of:     Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:     Review of the Federal Acquisition Career Management Information
             System (ACMIS)
             Report Number A090023/O/A/F11006

To:          Kathleen M. Turco
             Associate Administrator, Office of Governmentwide Policy (M)


This report presents the results of the Review of the Federal Acquisition Career
Management Information System (ACMIS).            ACMIS does not provide useful
management information. Despite a substantial investment of time, effort, and taxpayer
money, ACMIS exhibits poor data reliability and system functionality.           These
deficiencies can be traced to poor program management and a lack of accountability on
the part of GSA’s Office of Acquisition Policy and the Federal Acquisition Institute.
During our review, GSA decided to replace ACMIS. To develop a replacement system,
the Office of Governmentwide Policy must address the deficiencies inherent with
ACMIS. Attention to system development lifecycle principles, improved contract
management, and accountability for development, implementation, and maintenance of
the new system are essential to ensure future success.

We included your written comments to this report in Appendix C. I would like to thank
your staff for their assistance during this review. If you have any questions regarding
this report, please contact me at (816) 926-8610.
            REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                     INFORMATION SYSTEM (ACMIS)
                  REPORT NUMBER A090023/O/A/F11006

                             TABLE OF CONTENTS

                                                                             Page
EXECUTIVE SUMMARY                                                              i
INTRODUCTION                                                                   1
  Background                                                                   1
RESULTS OF REVIEW                                                              3
  Brief                                                                        3
  ACMIS Usefulness is Limited by Unreliable Data                               3
      Recommendations                                                          7
  ACMIS Usefulness is Also Limited by Poor Functionality                       8
      Recommendation                                                          11
  Poor Availability and Responsiveness of Help Desk Increases User Frustration 11
      Recommendations                                                         12
  Underlying Causes of System Failure                                         12
      Recommendations                                                         16
  Conclusion                                                                  17
  Management Comments                                                         17
  Internal Controls                                                           17
APPENDIXES
  Appendix A – Objective, Scope and Methodology                               A-1
  Appendix B – DHS Memorandum re: ACMIS Performance Issues                    B-1
  Appendix C – Management Comments                                            C-1
  Appendix D – Report Distribution                                            D-1
                   REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                            INFORMATION SYSTEM (ACMIS)
                         REPORT NUMBER A090023/O/A/F11006

                                        EXECUTIVE SUMMARY

Purpose

This review assessed the reliability of the data contained in the Acquisition Career
Management Information System (ACMIS). Specifically, we evaluated how useful the
data is in making management decisions regarding budgeting, staffing, training, and
employee development related to the General Services Administration’s (GSA’s)
acquisition workforce. The original objective 1 of this review was to assess GSA’s
implementation of the acquisition workforce qualification provisions of the Clinger-
Cohen Act of 1996. However, after completing the survey phase of the review, we
concluded that the ACMIS represented a high-risk area and focused our review on
system performance.


Results in Brief

ACMIS does not provide useful management information. Despite a substantial
investment of time, effort and taxpayer money, ACMIS exhibits poor data reliability and
system functionality. These deficiencies can be traced to poor program management
and a lack of accountability on the part of GSA’s Office of Acquisition Policy and the
Federal Acquisition Institute (FAI). During our review, GSA decided to replace ACMIS.
To develop a replacement system, the Office of Governmentwide Policy (OGP) must
address the deficiencies inherent with ACMIS. Attention to system development
lifecycle principles, improved contract management, and accountability for development,
implementation and maintenance of the new system are essential to ensure future
success.


Recommendations

For the system that will replace ACMIS, we recommend that the Associate
Administrator, Office of Governmentwide Policy:

      1. Implement controls during system planning and development that will help
         ensure data reliability.
      2. Work with the Office of Federal Procurement Policy (OFPP) to establish controls
         regarding agency accountability to ensure system use and government-wide data
         accuracy. Such controls may include centralized data entry.



1
    See the Office of Inspector General’s Fiscal Year (FY) 2009 Audit Plan.

                                                       i
   3. Ensure development of appropriate functionality, including system navigation,
      reporting and tracking features, system interfaces, and an automatic password
      reset function.
   4. Ensure contracts awarded for the development, implementation, and
      maintenance of the system contain proper requirements related to user support,
      including development of specific help desk deliverables.
   5. Ensure controls are in place for proper oversight of help desk performance.
   6. Establish controls to ensure proper oversight and accountability for the
      development, implementation, and maintenance of the system that will replace
      ACMIS, including contract management.
   7. Ensure that the development, implementation, and maintenance of the system
      that will replace ACMIS adhere to system development life cycle guidelines,
      including applicable GSA Orders and the GSA System Development Life Cycle
      (SDLC) Guidance Handbook.


Management Comments

The Associate Administrator, Office of Governmentwide Policy, concurred with the audit
findings and recommendations. Management’s written comments to the draft report are
included in their entirety as Appendix C in this report.




                                          ii
                   REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                            INFORMATION SYSTEM (ACMIS)
                         REPORT NUMBER A090023/O/A/F11006

                                             INTRODUCTION

Background

In accordance with section 37(d) of the Office of Federal Procurement Policy (OFPP)
Act, 2 each executive agency must collect, maintain, and utilize information to ensure
effective management of the acquisition workforce. In addition, the Clinger-Cohen Act
of 1996 3 requires that civilian agencies, including GSA, establish policies and
procedures related to management of their particular acquisition workforce.

ACMIS is one of the tools currently in place to assist agencies in complying with these
laws. ACMIS is a government-wide web-based system designed to record and track
data associated with the federal acquisition workforce. ACMIS was conceived to help
agencies make informed decisions related to budgeting, staffing, training, and employee
development. In addition, the system is intended to help members of the acquisition
workforce manage information regarding their education, training and experience.

The OFPP Act also established the FAI to foster and promote development of the
acquisition workforce. The Director of FAI reports to the Administrator of OFPP and is
responsible for operating, maintaining, and enhancing ACMIS. As shown in Figure 1
below, three different contractors have worked with ACMIS since its inception in 2002.
System costs from inception to May 2011 total over $5.3 million.

Figure 1: ACMIS Timeline

            Contractor                    Period of Performance                    System Costs
    A                                    January 2002 – April 2003                   $576,103
    B                                      April 2003 – April 2008                  $1,276,907 4
    C (Current)                           February 2008 – Present                   $3,532,049 5
                                                                Total               $5,385, 059

Nonetheless, ACMIS has not provided the functionality agencies need. Poor system
performance has resulted in user dissatisfaction and limited usefulness of system data.
Currently, FAI is working to modify an existing system to function with the capabilities
necessary to replace ACMIS. FAI officials advised that this system has no development

2
 Office of Federal Procurement Policy Act (Federal Acquisition Reform Act of 1995 amendments), 41
USC 433(d).
3
    Clinger-Cohen Act of 1996, P.L 104-106, Section 4307. Acquisition Workforce.
4
    This value was obtained from the GSA contracting officer. We were unable to verify this amount.
5
    This value was obtained from an FAI official. We did not verify this amount.
                                                       1
cost to GSA, and FAI will be responsible for the yearly Operations and Maintenance
(O&M) of the system. Estimated O&M costs for this system are $75,000 for January
through September 2011, and $150,000 for FY2012.




                                        2
              REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                       INFORMATION SYSTEM (ACMIS)
                    REPORT NUMBER A090023/O/A/F11006

                                 RESULTS OF REVIEW

Brief

ACMIS does not provide management with the type of information it needs to make
informed budgeting, staffing, training, and employee development decisions. The
system’s data is unreliable and the system lacks functionality. These deficiencies are
the result of inadequate system planning, design, and testing.

Also, management does not require that the system be used, and the ACMIS help desk
has not been fully functional for an extended time period. These problems can be
traced to poor program management and a lack of accountability on the part of GSA’s
Office of Acquisition Policy and FAI.

Further, GSA did not provide adequate contract administration and oversight, two
recurring themes associated with other recent system failures at the agency.

As a result of these deficiencies, GSA has spent in excess of $5.3 million in taxpayer
funds for a system that is so ineffective that it must be replaced. In order to successfully
develop a replacement system, the Office of Governmentwide Policy must take steps to
address the deficiencies associated with ACMIS.


ACMIS Usefulness is Limited by Unreliable Data

ACMIS data is of limited value in helping manage GSA’s acquisition workforce. The
system frequently produces unreliable data because it contains duplicate, inaccurate,
incomplete, missing and/or invalid records. For that reason, GSA maintains training and
certification information in systems outside of ACMIS. ACMIS data is unreliable
primarily because the system was poorly designed, not properly tested, and lacks
adequate controls. Barriers to system access and a lax attitude toward the use of
ACMIS have also contributed to data deficiencies. Careful attention to proper system
planning, testing, management, and oversight is essential to avoid similar problems in
the development of the replacement system.

        Duplicate Records Exist. ACMIS maintains a record for each acquisition
professional. This record contains basic personnel data, such as service computation
date, name, job series number, etc. GSA downloads this information into ACMIS on a
quarterly basis from data received from the Office of Personnel Management (OPM).
ACMIS also contains self-populated information including data related to an employee’s
education and experience. ACMIS links the OPM record to the individual’s ACMIS
profile via the employee’s social security number. Accordingly, each person in the

                                             3
acquisition workforce should have only one ACMIS account. Nevertheless, we found
evidence of extensive duplication in the system.

FAI and the current contractor informed us that at one time over 14,000 duplicates
existed in the system. To test the extent of this problem, we requested a listing of
ACMIS users that are members of GSA’s acquisition workforce.

The contractor provided a November 2009 report entitled “ACMIS GSA Users.” The
report listed 1,003 individual line items. After analyzing the listing and comparing
personal identifiers, we concluded that the report contained 596 duplicate records.

Our testing indicated that poor data entry controls contributed to the duplication. For
example, in some cases there were two records for the same individual because they
were entered under different versions of the person’s first name (i.e. “Jerome” versus
“Jerry”). Proper system design and testing should prevent duplicate records; however,
while the original ACMIS development contract contained requirements for proper
system development protocol, we found no evidence that GSA ensured the contractor
met those requirements.

       Inaccurate and Incomplete Records Exist. ACMIS has a low rate of data
accuracy and completeness. For example, the overall accuracy of the report generated
for our duplicate testing was questionable. At the time we conducted the tests, there
were at least 1,500 GSA employees classified in the Contracting Series (GS-1102) and
this series is just one subset of all the job series that define the acquisition workforce.
Since the first report generated by the system was incorrect, we had the contractor run
additional reports. A second report, produced in December 2009, listed 3,639 GSA
acquisition workforce personnel. A third report, also produced in December 2009,
registered just over 5,000 GSA acquisition workforce personnel. Because none of the
reports were in the same format or had comparable results, we were unable to
determine which, if any, were accurate.

To further evaluate the accuracy of ACMIS data and its ability to help management, we
compared information in the system to analogous information maintained outside the
system. We selected records from five GSA regions (Northeast and Caribbean Region,
Mid-Atlantic Region, Heartland Region, Greater Southwest Region and the Central
Office in the Washington DC area) based on the number of series 1102s employees 6 in
those regions (the sample accounted for 58 percent of all series 1102s in GSA).

We selected a random sample of 100 records (20 from each region), which represented
five percent of the total acquisition workforce in our universe. The testing included a
comparison of the sampled individuals’ ACMIS records to documentation maintained by
regional officials. The OCAO advised us that due to lack of confidence in ACMIS data,
the regions maintain training and certification records outside of ACMIS.


6
    Per data obtained from the OCAO.

                                            4
ACMIS indicated that 86 of the 100 individuals in our sample were registered in the
system. Of those registered, we noted 32 (37 percent) had inconsistencies between
their ACMIS and regional data.

Figure 2: ACMIS Registration and Matching Information Based on Audit Sample


        ACMIS Registration                               Information Testing
             (Sample size 100)                                 (Sample size 86)

                                                                                  Matching
                                 Registered                                       Information
                                 (86%)                                            (53%)

                                 Not                                              Non-
                                 Registered                                       Matching
                                 (14%)                                            information
                                                                                  (47%)


We interviewed 22 of the individuals in the sample. Those not registered in ACMIS
advised us that they were unaware of the system’s existence and the requirement to
use the system. Registered individuals with incomplete ACMIS data attributed the
discrepancies to problems encountered in using the system such as difficulties with
passwords and frequent system log outs.

In addition, information regarding the qualifications of one individual not in the 1102
series could not be entered without first entering information that was irrelevant to their
particular job. Specifically, the system required an “eligibility reason” when entering a
contracting warrant. In this case, none of the eligibility options applied, yet the user had
to select one in order to enter the warrant information into their ACMIS record. In our
opinion, the underlying cause for this problem is that the system was originally designed
to accept only the 1102 job series. It cannot accommodate other contracting job series
unless the user enters required data which may not be applicable to that user.

Standard system development criteria calls for testing to ensure the design of the
system allows for the efficient data entry. A system designed for the government-wide
acquisition workforce should be flexible enough to accommodate the varying job series
that fall under the definition of the acquisition workforce.

Also, some registered personnel advised us that they were unaware of the requirement
to maintain data in ACMIS subsequent to registration. Further, some individuals knew
about ACMIS and its purpose; however, because regional management did not
emphasize using ACMIS, they did not view keeping their system information current to
be a priority.

                                              5
Further, there are no controls to ensure that data related to individuals who are no
longer part of the acquisition workforce is removed from ACMIS. For example, we
noted individuals in the system that had either left the agency or retired. The current
contractor advised us that there is no procedure in place for removing such records
from ACMIS. Other examples of data inaccuracies included individuals who registered
in ACMIS but did not appear in the system and the presence of one individual in ACMIS
who was not part of the acquisition work force and had never registered in the system.

       Centralized Data Entry is Likely to Produce Better Accuracy. GSA does not
require centralized ACMIS data entry, which may contribute to the inaccuracy of the
system’s data. Most of the GSA regions we reviewed require individuals to enter their
own training and qualification updates into ACMIS. With individual entry, each member
of the acquisition workforce is responsible for entering their own training, certification,
and warrant information into ACMIS. Their incentive is that ACMIS data can be used to
support their resumes when applying for a new position or a promotion. However, our
testing and interviews indicated that because of heavy workloads, system access
issues, and a lax attitude on the part of management, data entry was a low priority for
most individuals. As a result, the error rate tended to be higher than when centralized
data entry was used. In a region operating under the individual data entry method, the
average ACMIS error rate was in excess of 68 percent, as compared to 29 percent in a
region using centralized data entry.

       Enforcement of System Usage is Needed. In part, ACMIS is ineffective
because GSA has not emphasized its use. As indicated earlier in this report, while we
found a high rate of registration, the extent of system use within GSA is less than
desirable. Additionally, GSA has granted one agency a temporary exemption from the
requirement to use ACMIS, and another agency has advised GSA that it will not enforce
ACMIS use for its employees. Without enforcement of system use, management
decisions will be based upon incomplete data, and the system will not meet its purpose.

 In an email dated July 1, 2008, an FAI management official granted the United States
Department of the Treasury a temporary exemption from using ACMIS. In addition, in
October 2008, the Department of Homeland Security (DHS) wrote a memorandum
addressed to OFPP stating that it was ceasing use of ACMIS. DHS officials stated that
they had experienced significant difficulties with the implementation and use of the
system. Specifically, DHS indicated major systematic issues for DHS Headquarters and
major functional issues for users (See Appendix B for a copy of the DHS
memorandum). We found no evidence that FAI challenged this exemption. While we
understand the reasons behind the exemptions, in the future consistent enforcement is
needed for the system to serve its purpose.

In 2004, we recommended that the Senior Procurement Executive for GSA, in
conjunction with the other GSA Services, Staff Offices and Regional Offices should
create and implement quality control procedures for inputting and maintaining high




                                            6
quality data within ACMIS 7. Management’s response to this recommendation indicated
that the Office of Acquisition Policy would issue policy requiring the use of ACMIS;
however, that office never issued the policy.

        OPM Downloads May Contribute to Data Inaccuracies. There is some
concern among the acquisition workforce that quarterly OPM downloads are causing
data inaccuracies by overwriting information in ACMIS that has already been corrected
in the system. In one example, an individual advised us that she had edited her ACMIS
profile information to accurately reflect her personnel data, but after each OPM data
download, she had to go back into ACMIS to correct the same information. We were
unable to identify the extent of this problem; however, if GSA intends to continue to
import data from OPM into the new system, GSA should ensure that controls exist to
prevent overwriting of correct information.

In summary, despite the investment of time and money in ACMIS, GSA and at least two
other government agencies rely on alternative methods to track training and education
for the acquisition workforce because they cannot rely upon the system to maintain
reliable data. Duplicate entries, data overwriting, and invalid records combine to cause
major data inaccuracies.

We attribute the data reliability problems to
(1) poor planning and system design;
(2) inadequate system testing; and
(3) poor contract administration.

Those responsible for implementing a replacement system should develop proper
system controls to ensure data reliability so that the system serves its intended purpose.
Planning should include processes to ensure that duplicate entries cannot occur, that
OPM overwrites do not occur, and that invalid records are not a part of the system. In
addition, in order for the system that replaces ACMIS to function to capacity, system
use must be enforced. GSA should work with the OFPP to enforce system use
government-wide. Further, GSA should mandate centralized data entry and advocate
centralized data entry government-wide.

Recommendations

For the system that will replace ACMIS, we recommend that the Associate
Administrator, Office of Governmentwide Policy:

    1. Implement controls during system planning and development that will help
       ensure data reliability.




7
 Audit of FSS’s Acquisition Workforce Qualifications. Report Number A030147/F/A/VO4004, dated
March 25, 2004.
                                                7
   2. Work with the Office of Federal Procurement Policy (OFPP) to establish controls
      regarding agency accountability to ensure system use and government-wide
      accuracy. Such controls may include centralized data entry.


ACMIS Usefulness is Also Limited by Poor Functionality

Deficiencies in the functionality of ACMIS such as a low functioning reporting tool,
system access barriers, and counterintuitive navigation of the system frustrate users
and contribute to underutilization of the system. ACMIS also lacks features to provide
system users with important tracking information about training and certifications.
Finally, a lack of functional system interfaces results in further system inefficiencies.
Again, the primary causes of these deficiencies are poor system design and inadequate
testing.

        System Reporting Function is Ineffective. The ACMIS reporting tool is difficult
to use and does not produce reliable data. Without an operable reporting feature, it is
virtually impossible to extract the summary data management needs from the system.

The ACMIS reporting tool, called Informatica, is a stand-alone application developed by
the Defense Acquisition University. Informatica interfaces with ACMIS to run reports,
and while we recognize that a summary report is only as good as the data in the
system, we found Informatica very difficult to use. For this type of system to be of
optimum benefit, its reporting tool should be self-guided and should cater to the specific
needs of individual users. This is not the case with Informatica. Its user instructions
consist of PowerPoint visuals with no accompanying written instructions. Additionally,
Informatica’s working terminology is geared to those with a technical background and
an advanced knowledge of how to sort data. Users we interviewed advised us that they
either don’t know how to use the tool or have tried to use it only to obtain reports that
were invalid.

Earlier in this report, we discussed the difficulty the current contractor had in producing
a reliable report for our duplicate record tests. Interestingly, the contractor did not use
Informatica to generate the reports because they consider it to be unreliable. Instead,
the contractor compiled the information by directly accessing the database and
manipulating the data to attempt to produce the requested information.

To test some of the assertions made by acquisition workforce personnel regarding the
usefulness of Informatica, we attempted to run a report on GSA’s acquisition workforce.
The instructions were difficult to follow and often left us guessing as to what to do next.
In addition, we experienced several system log outs and repeatedly had to restart our
queries. After several attempts, we were unable to obtain the desired information.

According to the OCAO, there are approximately 1,500 series 1102s in the GSA
acquisition workforce. However, the Informatica report we generated indicated more
than 14,000 series 1102s in GSA. This report was grossly inaccurate, as there are only
approximately 12,000 total employees at GSA.      We also attempted to develop the
                                            8
report in Informatica using several different filters to sort by region and by employee
name. Neither of these filters resulted in a satisfactory report, and neither management
nor the contractor was able to explain the reason for the obvious discrepancy.

Figure 3: Informatica Report Results

                          Agency                     Total # of 1102 Employees
 Department of Agriculture                                                  64
 Department of Commerce                                                     42
 Department of Education                                                    14
 Department of Energy                                                       23
 Department of Health and Human Services                                    12
 Department of Housing and Urban Development                                25
 Department of Interior                                                    177
 Department of Labor                                                        33
 Department of Transportation                                              112
 Department of Treasury                                                     47
 Department of Veterans Affairs                                            136
 Environmental Protection Agency                                            77
  General Services Administration                                       14,850
 National Aeronautics and Space Administration                              12


Another problem we noted is that Informatica contains a list of frequently generated or
“canned” reports for users to access. However, we found these canned reports to be
out of date and could find no information on how to run current reports.

Management has not widely used the reporting features for ACMIS, and in instances
where they have used the reports, they risk making poor decisions based on bad
information. Ideally, ACMIS would operate with a fully functional reporting system;
however, the original contract did not include appropriate requirements for performance
regarding the reporting feature. A proper pilot test prior to full implementation would
have revealed problems with the tool. We found no evidence of system testing,
including a pilot test, prior to system implementation, even though the original system
development contract required the contractor to perform this testing.

       System is Difficult to Navigate and Access Barriers Exist. ACMIS is not
designed for ease of navigation. As a result, maintaining updated information in the
system is unnecessarily cumbersome for users. Consequently, many simply stopped
using it.

There is no consistent main menu to provide users the ability to move about the system
as needed. In addition, users cannot back-track in the system in a logical manner,
which causes frustration. Users wanted to see an easily navigable menu with clear
options for a home page, a “back/return” function, and other commonly used features.



                                                 9
System users also had difficulty accessing the system due to unwieldy requirements
regarding system passwords. The system requires frequent password resets relative to
how often users access it. For example, every time a user completes a training course
they access the system to update their information. Accordingly, if the system requires
a password change every 90 days, the user may have to reset their password several
times in any given year. In addition, ACMIS does not allow users to reset their own
password; they must contact the help desk. Further, ACMIS and Informatica require
separate passwords. We noted that the majority of the calls to the ACMIS help desk
were related to problems encountered in resetting system passwords.

Password requirements for the system that will replace ACMIS should balance the need
for security with concern for ease of use. Requiring an automatic password reset
function in the system that will replace ACMIS would prevent these problems.

        Useful Information Tracking is Needed. ACMIS lacks an efficient tracking
system that would allow employees to monitor their progression towards certain
certifications and warrants. In addition, tracking assists with managing training
requirements, a function in calculating Continuing Professional Education (CPE) credits
accumulated by individual. The system that will replace ACMIS should have the
functionality to provide this basic tracking information.

       Lack of Interface Capabilities Results in System Inefficiencies. Insufficient
planning during the initial system rollout may have caused the development team to
overlook elements of the system that are beneficial to all users. ACMIS lacks two key
interfaces that would promote efficiency and accuracy: (1) links between ACMIS and
acquisition training sites, and (2) an email interchange notifying users of data updates.
In addition, OGP should consider the potential for additional interfaces that transfer
information between agency specific systems and the ACMIS replacement system.
Such interfaces were not considered in developing ACMIS.

An interface is a recurring, structured exchange of data between computer
systems/applications. Since ACMIS compiles information about the training and
education of the government-wide acquisition workforce, it would be useful for the
system to interface with government-wide and agency-specific training sites. For
example, ACMIS should interface with FAI’s training website and GSA’s Online
University. These and other sites allow acquisition workforce personnel to take classes
that count toward certifications and/or warrants. Such interfaces would allow this
training information to automatically propagate into ACMIS. In addition, an email
notification interface would help employees verify the accuracy of education, training,
and warrant information in ACMIS, and alert supervisors of updates or changes
requiring their approval.

A major benefit of such interfaces is that they help minimize redundancies and
duplications in other agency systems. For instance, personnel systems, including
GSA’s Comprehensive Human Resources Integrated System (CHRIS), contain
employee data, including job series and training certifications, which are also data

                                           10
elements of ACMIS. Accordingly, GSA should ensure, to the maximum extent possible,
that the system that will replace ACMIS can interface with existing systems.

As discussed above, poor system functionality has discouraged users and has limited
the usefulness of ACMIS. An ineffective reporting function conveys unreliable data and
frustrates users. In addition, ACMIS has system navigation deficiencies and access
barriers that should be corrected with the new system. ACMIS also lacks useful
information that would be beneficial to users monitoring progress towards completion of
training and education. Further, there is need for interface capabilities. These
deficiencies are the result of insufficient system planning, design, and testing. For the
reporting tool in particular, the original contract did not include the appropriate
requirements for performance. Planning for the new system should include controls to
ensure proper functionality, including thorough testing.

Recommendation

For the system that will replace ACMIS, we recommend that the Associate
Administrator, Office of Governmentwide Policy:

   3. Ensure development of appropriate functionality, including system navigation,
      reporting and tracking features, system interfaces, and an automatic password
      reset function.


Poor Availability and Responsiveness of Help Desk Increases User Frustration

ACMIS users have experienced poor access to and responsiveness from the ACMIS
help desk. The primary cause was a faulty phone system which program managers
allowed to continue for an extended time period. Poor planning of help desk objectives
and insufficient performance measures for help desk deliverables contributed to these
problems. In the future, the contracting team for the system that will replace ACMIS
must ensure help desk functionality and performance by developing meaningful
measures for contract deliverables that hold all parties accountable for performance.

The current contract requires the contractor to furnish help desk support and allows the
contractor to use government facilities, including the phone system, to provide this
service. As early as July 2008, the contractor reported that the help desk was not fully
functional due to problems with the phone system. The contractor asserted that the
government furnished equipment was faulty. However, neither the COTR nor FAI took
action to address this issue.

We tested the responsiveness of the help desk in June and September 2009. We made
three call attempts, one of which was answered quickly by a contract employee; the
other two were directed to the help desk voicemail system after multiple rings. The
contractor advised us that this happens because the phone system does not “roll over”
to a different line if the main line is busy. Therefore, users do not always receive timely
assistance.
                                            11
In addition to the phone system issue, we found that the current contract indicated no
specific performance measures related to the help desk.

Figure 4: Current Contract Requirements for ACMIS Help Desk Support

   REQUIRED SERVICE                  STANDARD                         METHOD OF
                                                                      SURVEILLANCE

   (Performance Requirements)        (Performance Standards)          (Quality Assurance)
   Contractor to provide Help desk   The Contractor-managed           Customer satisfaction
   Support, ACMIS Super              ACMIS shall be available         (COTR, ACM [Acquisition
   Administrator and Project         80% of the time during non-      Career Manager]).
   Manager to include conducting     peak hours, and shall be
   agency outreach, agency visits,   available for use at least
   meetings, and updates to FAI      99.9% of the time for peak
   manager in a timely manner with   hours from 6:00 a.m. Eastern
   qualified staff.                  time to 7:00 p.m. Pacific time
                                     business days.

In contrast, more useful standards might state that:

   •   All calls to the help desk are answered within three rings.
   •   90 percent of customer feedback forms indicate that the help desk staff was
       helpful, responsive, and courteous.

To assure the quality of help desk support for the ACMIS replacement system, contract
deliverables should include metrics like response time and customer satisfaction.
Performance measures related to these deliverables need to be specific, measurable,
and hold all parties involved accountable for their related performance.

Recommendations

For the system that will replace ACMIS, we recommend that the Associate
Administrator, Office of Governmentwide Policy:

   4. Ensure contracts awarded for the development, implementation, and
      maintenance of the system contain proper requirements related to user support,
      including development of specific help desk deliverables.

   5. Ensure controls are in place for proper oversight of help desk performance.


Underlying Causes of System Failure

Mismanagement of the ACMIS system has resulted in significant expenditure of
taxpayers’ dollars. To date, GSA has spent in excess of $5.3 million on a system that
cannot be used for its intended purpose. The ACMIS failed due to: (1) poor program
management and oversight and (2) a lack of adherence to system development and
                                               12
maintenance guidelines. Unfortunately, these are recurring themes common to other
GSA system development failures in recent years. Proper oversight and contract
management, as well as strict adherence to system development protocol, is essential
for GSA to avoid another failure.

   GSA Failed to Ensure the Original Contractor Delivered a Fully Functional
System. GSA awarded a task order for the development of ACMIS on December 21,
2001, using a Department of Commerce contract vehicle. 8 The task order contained a
base performance period of approximately nine months to develop, test, implement, and
provide ad-hoc support for ACMIS, with four one-year option periods for operation and
maintenance of the system. The task order performance work statement called for the
development of a fully functional system within the base period; however, there is no
evidence that GSA ensured that the contractor delivered the system and met the
specific contract deliverables. For example, the task order required the contractor to
submit a detailed program management plan for ACMIS with milestones for:

      •   Design and development of each major system component;
      •   Pilot testing;
      •   Formal submission of the completed system to GSA for evaluation and
          acceptance; and
      •   Detailed procedures for quality control, security, configuration management, and
          pilot testing and demonstration.

However, we found no evidence that the contractor delivered the program management
plan as required.

The development and testing requirements also stated that the contractor was to
develop the system components, demonstrate functionality, and complete pilot testing
according to the scheduled dates in the program management plan. In addition, system
delivery requirements stated that the contractor was to deliver the system to GSA for
evaluation and acceptance no later than February 28, 2002. 9 In conjunction with system
delivery, the contractor was also to provide certification by a third party that the system
met all applicable security requirements, and upon notification of GSA acceptance of
the system, install ACMIS to full operating capacity. Finally, the task order called for
the contractor to deliver system documentation such as a data dictionary; all system
plans and designs; server requirements and configuration; specifications for all
programs, web pages, reports, and procedures; installation and configuration
instructions; and user manuals and instructional materials.

The monitoring method for all of these requirements was inspection by the Contracting
Officer’s Technical Representative (COTR). However, neither former contracting
officials nor the system owner (FAI) could produce the contract file and were unable to
produce any documentation indicating that the contractor fulfilled the task order

8
    Commerce Information Technology Solutions (COMMITS).
9
    On 1/17/2002, GSA issued a modification to the contract extending the delivery date to June 10, 2002.
                                                     13
requirements. Despite the absence of evidence to show the contractor delivered a fully
functional system as required, payment records indicated that GSA paid the contractor
$576,103 over approximately a two-year period.

GSA’s mismanagement of the initial ACMIS system development contract was a critical
error. Available documentation suggests that aggressive time schedules imposed by
GSA at the time contributed to the outcome of a poorly designed and tested system.
The “ACMIS Technical Questions and Clarifications” document, which provides a record
of the exchange between GSA and the contractor, revealed that the contractor
expressed concerns about time constraints GSA placed on the project; specifically, to
have a system delivered within 5 months of award. The contractor indicated that it
could be necessary to bypass some quality assurance steps to meet the deadline.

        GSA Did Not Properly Manage the Follow-on Contract. In 2003, GSA
awarded a contract to operate and manage FAI. Included in the contract was a line
item for operation and maintenance of ACMIS. The Statement of Objectives for the
contract indicated that the deliverables for the ACMIS line item were “As defined in
current task order” and included the current task order information as an attachment.
Because the previous task order included system development as a major aspect,
establishing the identical deliverables for the follow-on contract that was supposed to be
for hosting, and operation and maintenance only, was not appropriate and represents
further evidence that GSA never obtained the fully developed system as required by the
first contract. In any case, no evidence exists that GSA ever obtained the deliverables
from the follow-on contractor either. Under this contract, GSA paid the contractor nearly
$1.3 million for ACMIS operation and maintenance through April 2008.

In 2008, GSA awarded a new contract for ACMIS operation and maintenance to a
different contractor (the current contractor). Both the current contractor and the COTR
advised us that the previous contractor did not turn over the required system
documentation, and that the absence of this critical documentation has negatively
impacted the current contractor’s ability to operate and maintain the system. Based on
the contract requirements, GSA should have ensured the previous contractor delivered
all system documentation before remitting payment. GSA officials could not provide
evidence of steps taken to ensure that the Government received the contract
deliverables from the previous contractor.

       Inadequate Attention to System Development Life Cycle Principles is a
Recurring Theme at GSA. In addition to contract administration deficiencies, the
ongoing data reliability problems with ACMIS suggest inadequate attention to proper
system development, implementation, and maintenance protocol. GSA Order CIO
[Chief Information Officer] 2140.3 - Systems Development Life Cycle (SDLC) Policy,
issued September 29, 2006, requires all GSA Service and Staff Offices to adhere to a
structured methodology for systems development, implementation, and operation.
SDLC is a disciplined approach to systems development, implementation, and
maintenance that places responsibilities on the system owner for continuing
development decisions. The GSA Order also requires, among other items, the

                                           14
maintenance of system development documentation and appropriate quality control and
assurance mechanisms throughout the system lifecycle.

GSA’s SDLC Guidance Handbook outlines the SDLC phases, activities, and roles and
responsibilities throughout the lifecycle of a system. The objective of the guidance is to
provide standardized, proven practices to system owners, program managers, project
managers, integrated project team members, system analysts, designers and
developers, and system customers to use when developing, modernizing, or enhancing
needed systems. The GSA handbook cites the following specific objectives of SDLC
protocol:

      •   To reduce the risk of project failure;
      •   To consider business, functional, data, and technical requirements throughout
          the system life cycle;
      •   To identify management and technical issues as early as possible;
      •   To foster realistic expectations of what a system will and will not provide;
      •   To balance programmatic, technical, management, and cost aspects of the
          proposed system development, modernization or enhancement;
      •   To encourage periodic assessment of existing systems to determine if they still
          are effective;
      •   To measure progress and status for effective and timely corrective actions;
      •   To support effective resource management and budget planning;
      •   To better position the agency to meet current and future business requirements.

The conditions we found related to ACMIS are particularly troubling in light of previous
GSA system failures in recent years where auditors have identified similar causes. In
August 2002, GSA’s Federal Technology Service (FTS) contracted with a firm to
develop GSA Preferred (also known as 3GS) to replace existing major systems and
databases used to support the FTS IT Solutions business processes. In 2004, our
report on GSA Preferred 10 identified areas of project and technical risk with GSA
Preferred requiring prompt management attention. Among the problems identified
and/or the root causes were an aggressive development and implementation timeline
and the need for completion of comprehensive system testing, which we’ve also
identified as ACMIS deficiencies. In addition, we performed a review as a result of a
2006 hotline complaint involving GSA Preferred 11 that identified evidence of project
mismanagement, among other problems. In addition to confirming the findings of the
earlier OIG report, the hotline review also found that management could not verify the
total dollars spent on GSA Preferred, which we also found with ACMIS. In January
2006, GSA decided to discontinue the use of GSA Preferred and transfer data back to
the previous systems.


10
  Review of the Federal Technology Service’s Third Generation System (3GS), Report Number
A030002/T/T/Z04003, dated February 11, 2004.
11
     Hotline Complaint – GSA Preferred, Report Number A050163T/A/Z06002, dated March 1, 2006.

                                                  15
Another GSA system failure with similarities to ACMIS is the GSA OCAO’s Applied
Learning Center (ALC). In September 2004, the OCAO launched a competency
assessment tool for acquisition professionals developed to measure skill-gaps and
assist GSA in meeting the requirements of the Clinger-Cohen Act of 1996. 12
Development and support of the ALC cost the Government approximately $6.6 million
until the OCAO shut down the system in May 2006. In 2008, we performed a review of
acquisitions within the OCAO in response to an OIG Hotline complaint. 13 This report
cited issues regarding the validity and integrity as reasons for cancellation of the ALC.

Additional problems and associated causes identified in the audit report from 2008 that
may also exist with the ACMIS system failure are

     •   poor contract management and oversight,
     •   lack of adequate documentation retention,
     •   incomplete information obtained on deliverables prior to payment to the
         contractor for services, and
     •   policies and procedures not always adhered to during key phases in the award
         and administration of the contract.

Poor program management and oversight and a lack of adherence to system
development and maintenance guidelines are two major underlying causes of the failure
of ACMIS. Evidence of the mismanagement of ACMIS has resulted in GSA never
obtaining the operable system outlined in the original contract, and ultimately a
significant waste to the taxpayers. Unfortunately, system failures at GSA have been a
recurrence resulting from contract mismanagement and inadequate adherence to
system development life cycle requirements. Controls should be established to ensure
proper oversight and accountability for the development, implementation and
maintenance of a system to replace ACMIS. By ensuring proper contract and program
management, including adherence to system development guidelines, GSA will be
assured a system that more adequately aligns with its intended purpose.


Recommendations

For the system that will replace ACMIS, we recommend that the Associate
Administrator, Office of Governmentwide Policy:

     6. Establish controls to ensure proper oversight and accountability for the
        development, implementation, and maintenance of the system that will replace
        ACMIS, including contract management.


12
 The Clinger-Cohen Act of 1996 requires that civilian agencies establish policies and procedures for the
management of the acquisition workforce.
13
  Hotline Complaint – Acquisitions with the Office of the Chief Acquisition Officer, Report Number
A070046/O/A/F08011, dated July 30, 2008.
                                                   16
   7. Ensure that the development, implementation, and maintenance of the system
      that will replace ACMIS adhere to system development life cycle guidelines,
      including applicable GSA Orders and the GSA System Development Life Cycle
      (SDLC) Guidance Handbook.


CONCLUSION

Despite a substantial investment of time, effort and taxpayer money in ACMIS, the
system has failed to meet its intended purpose. It does not provide the reliable data
that management needs to make informed decisions regarding budgeting, staffing,
training, and employee development. The deficiencies with ACMIS are attributable
primarily to poor program management and oversight by the GSA Office of Acquisition
Policy and FAI. Additionally, GSA has not enforced the required use of the system.

Major systematic and functional issues with ACMIS have resulted in GSA and at least
two other government agencies relying upon alternative methods for tracking the data
related to the training and education of their acquisition workforces. In addition, system
functionality deficiencies have caused inefficient data entry and an unusable reporting
mechanism. Further, the lack of a fully operational help desk has increased user
frustration.

As GSA moves forward in implementing a system to replace ACMIS, it is critical for the
Office of Governmentwide Policy and FAI to ensure that the deficiencies with ACMIS
and other recent system failures at GSA do not recur. Adequate planning, system
design, and testing would have prevented these problems. Attention to system
development lifecycle principles, improved contract management, and accountability for
development, implementation and maintenance of the new system are essential to
assure success of the new system. In implementing a new system, GSA should also
ensure that system functionality includes useful tracking features and essential interface
capabilities.


Management Comments

The Associate Administrator, Office of Governmentwide Policy, concurred with the audit
findings and recommendations. Management’s written comments to the draft report are
included in their entirety as Appendix C in this report.


Internal Controls

We limited our assessment of internal controls to those related to the Acquisition Career
Management Information System. Specifically, the audit team limited the review of
internal controls to (1) the accuracy and usefulness of ACMIS, (2) the controls over
contract development and management and administration of ACMIS, and (3) the
ACMIS system controls. We provided recommendations to strengthen and improve the

                                           17
current and future controls associated with the use of ACMIS, and its successor, as
discussed in the Results of Review and Recommendations sections of this report.




                                        18
APPENDIXES
                    REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                             INFORMATION SYSTEM (ACMIS)
                          REPORT NUMBER A090023/O/A/F11006

                                              Appendix A
                                   Objective, Scope and Methodology

The objective of this review was to assess the reliability of the data contained in the
ACMIS. Specifically, we evaluated the usefulness of the data in making management
decisions regarding budgeting, staffing, training, and employee development.

We performed the following steps to answer our review objective:

          Reviewed relevant audit reports from GSA’s Office of Inspector General (OIG)
           and the U.S. Government Accountability Office (GAO);
          Reviewed the FY 2005 and FY 2007 Annual Report on the Federal Acquisition
           Workforce by the Federal Acquisition Institute;
          Reviewed the results of the June 2005 – July 2006 workforce study performed by
           Beacon Associates, Inc.;
          Met with GSA management officials from the Federal Acquisition Service, the
           Public Building Service, other GSA Staff offices and the Office of the Chief
           Acquisition Officer;
          Reviewed a judgmental sample of acquisition workforce personnel training and
           education information in five GSA regions;
          Interviewed acquisition workforce personnel in three of the five sampled regions;
          Performed limited testing in ACMIS and Informatica 14 to verify system accuracy;
          Reviewed GSA’s policy and guidance related to the definition of acquisition
           workforce;
          Reviewed policy and guidance related to the use of ACMIS by GSA acquisition
           workforce personnel;
          Reviewed ACMIS contract and program documentation;
          Reviewed relevant policy and guidance, including OFPP Policy Letter 05-01,
           Office of Personnel Management (OPM) qualification standards for the
           contracting series 1102 (series 1102), the GSA Service Acquisition Reform Act of
           2001, and the Clinger-Cohen Act of 1996;
          Attended training sessions related to ACMIS and Informatica at the GSA Expo in
           2009;
          Performed a limited review of the FTS Third Generation System (3GS)/GSA
           Preferred;
          Performed a limited review of the Applied Learning Center (ALC).


14
     Informatica is the reporting tool for ACMIS.
                                                    A-1
This review was originally planned to assess the status of GSA’s implementation of the
acquisition workforce qualification provisions of the Clinger-Cohen Act of 1996.
However, after survey work, we determined that the risks associated with ACMIS
warranted immediate review.

We conducted our review from February 2009 through April 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our review objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our review objectives.




                                         A-2
REVIEW OF THE ACQUISITION CAREER MANAGEMENT
         INFORMATION SYSTEM (ACMIS)
      REPORT NUMBER A090023/O/A/F11006

                 Appendix B
   DHS memorandum re: ACMIS Performance Issues




                       B-1
B-2
B-3
B-4
B-5
REVIEW OF THE ACQUISITION CAREER MANAGEMENT
         INFORMATION SYSTEM (ACMIS)
      REPORT NUMBER A090023/O/A/F11006

                Appendix C
            Management Comments




                    C-1
C-2
C-3
C-4
              REVIEW OF THE ACQUISITION CAREER MANAGEMENT
                       INFORMATION SYSTEM (ACMIS)
                    REPORT NUMBER A090023/O/A/F11006

                                     Appendix D
                                   Report Distribution


Associate Administrator, Office of Governmentwide Policy (M)

Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations (JAO)

Assistant Inspector General for Investigations (JI)

Deputy Assistant Inspector General for Acquisition Audits (JA-A)




                                            D-1
